Peace Corps
Office of Inspector General




Final Program Evaluation Report:
      Peace Corps/Romania
           IG-11-05-E



                                   June 2011
                               EXECUTIVE SUMMARY
Over 1,100 Peace Corps Volunteers have served in Romania since the program was first
launched in 1991. There are currently three project sectors in Romania: Teaching English as a
Foreign Language (TEFL); Environmental Education and Outreach (ENV); and Youth
Development (YD). At the onset of this evaluation, 99 Volunteers were serving in Romania.

PC/Romania has undertaken a significant strategic shift to better align the post to further Peace
Corps and host country goals. As a result, the Community Economic Development (CED)
project sector closed in 2010, and the ENV and YD projects are scheduled to close in 2011.
Based on input from stakeholders, the post is refocusing its programming on the TEFL project
with an emphasis on serving rural and underserved communities.

Along with the decision to close three Volunteer project sectors, the country program has shifted
from a projected “moderate” growth plan to “no growth.” Recently, there have been gaps in
filling key staff positions at the post. Consequently, the staff expressed concerns that the country
program is not an agency priority. This perception and concern for the future of the PC/Romania
program has negatively impacted staff morale and the workplace environment. Fiscal year 2010
staffing vacancies required post staff to assume additional responsibilities, which has also
negatively impacted post operations. In addition, the post has experienced some inter-staff
communication issues that post leadership is working to resolve.

We found that amid this uncertainty and significant staff and programmatic changes,
PC/Romania continues to be a strong performing post. The post maintains positive and stable
relationships with government ministry partners. All partners interviewed expressed
appreciation for the work of the Volunteers and look forward to future collaboration with Peace
Corps. The Volunteers feel well supported by staff, and believe the staff is responsive to the
issues they raise. The post‟s comprehensive work site selection process, which results in
multiple potential sites, positions Volunteers with both meaningful assignments and strong
counterparts. However, given the new focus on rural underserved communities, project
management and Volunteer support practices need to be reviewed to ensure that Volunteers in
new sites continue to receive adequate support.

Overall, Volunteers feel safe in Romania. The number of reported crime incidents has been
lower than regional averages for the past three years. However, emergency preparedness at post
was not adequate, as most Volunteers we interviewed could not identify their emergency
consolidation points or their security wardens. While Volunteer housing met most of the post-
established criteria, many Volunteers did not have functioning carbon monoxide detectors.

The report contains 12 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Romania                                                i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

TABLE OF CONTENTS ..................................................................................................................... 1

HOST COUNTRY BACKGROUND ..................................................................................................... 2

PEACE CORPS PROGRAM BACKGROUND....................................................................................... 3

EVALUATION RESULTS ................................................................................................................... 5
          PROGRAMMING ................................................................................................................................................5

          MANAGEMENT CONTROLS ............................................................................................................................... 7

          VOLUNTEER SUPPORT .................................................................................................................................... 10

          TRAINING ....................................................................................................................................................... 17


OBJECTIVE, SCOPE AND METHODOLOGY ................................................................................... 19

INTERVIEWS CONDUCTED ............................................................................................................ 20

LIST OF RECOMMENDATIONS ...................................................................................................... 23

APPENDIX A: AGENCY’S RESPONSE TO PRELIMINARY REPORT ................................................ 24

APPENDIX B: OIG COMMENTS .................................................................................................... 32

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ............................... 34
                        HOST COUNTRY BACKGROUND
Romania is located at the crossroads of Central and Southeastern Europe, north of the Balkan
Peninsula and borders the Black Sea to the east. Romania shares a border with five countries:
Hungary and Serbia to the west, Ukraine and Moldova to the northeast, and Bulgaria to the
south. Slightly smaller than Oregon, Romania is the ninth largest country of the European Union
(EU) by area, and has the seventh largest population of the EU with approximately 21.5 million
people. Its capital and largest city is Bucharest, the sixth largest city in the EU with about two
million people.

Romania was formed when the principalities of Moldavia and Wallachia united in 1859. The
country was autonomous but paid tribute to the Ottoman Empire. With support from Russia,
Romania subsequently declared independence from the Ottoman Empire on May 9, 1877. By
the end of World War I, Transylvania, Bukovina and Bessarabia became part of Romania
doubling the size of the country and population. Romania then emerged into an era of
progression and prosperity that would continue until World War II. However, by the war‟s end,
parts of northeastern Romania were occupied by the Soviet Union, and Romania became a
People‟s Republic, joining seven other communist states in Eastern Europe as a member of the
Warsaw Pact. Romania began to distance itself from the Soviets after the death of Stalin.

The Romanian Revolution of 1989 was a week-long series of increasingly violent riots and
fighting in late December 1989 that overthrew the government of the totalitarian president
Nicolae Ceauşescu who had ruled the country since 1965. Romania suffered post-revolution
economic problems and began making a series of political economic reforms. Over a decade of
reforms helped the country gain membership into NATO on March 29, 2004 and the European
Union on January 1, 2007. Its government is a unitary parliamentary republic. Romania is now
an upper-middle income country with “high human development” per the 2010 United Nations
Human Development Report. However, Romania's income level remains one of the lowest
within the European Union. Romania still faces significant development challenges in rural areas
and underserved communities.




Final Program Evaluation Report: Peace Corps/Romania                                            2
                 PEACE CORPS PROGRAM BACKGROUND
Peace Corps programming in Romania began in 1991, when 18 Volunteers arrived to initiate an
orphanage project. Since then 1,100 Volunteers have served in Romania.

PC/Romania (hereafter referred to as “the post”) has taken a strategic shift in its programmatic
direction and is reducing its program sectors from four to one. In 2007, the post‟s leadership
embarked in an effort to define the post‟s "niche" as a development agency in an EU member
state. Additionally, the post discussed how to meet Peace Corps‟ goal to provide trained men
and women while considering the generalist applicants that Peace Corps readily recruits. These
strategic discussions included input from current and former Volunteers, post staff, non-
governmental partners and government officials. The post‟s final decision was to focus on
English education in primarily rural and underserved communities, which had not historically
had access to Volunteers.

The post currently has Volunteers actively serving in three projects: TEFL, ENV and YD. The
CED program officially closed on July 31, 2010. The ENV and YD sectors are targeted to close
in 2011 and are no longer receiving trainee inputs. The remaining Volunteers in both these
sectors are scheduled to close service in August of 2011, and the program managers for these
sectors departed in December 2010. The post‟s programming has been restructured towards a
focus on English education in rural and underserved communities while encouraging Volunteers
to incorporate activities into their secondary projects from the sectors that are closing.

Detailed explanations of the three active project sectors are discussed below:

       Teaching English as a Foreign Language
   The TEFL project is the largest provider of native English speakers for Romanian schools
   and addresses Romania‟s expressed need for improved English language instruction. With
   English as a requirement for many jobs within Romania and internationally, the demand for
   native-speaking English teachers continues to be high. The project has been restructured to
   focus on English education in rural and underserved communities. Volunteers work in more
   than 80 communities with students and teachers and also organize and participate in a variety
   of community and summer activities, including writing and drama courses, and
   environmental, sports, and leadership camps.

       Environmental Education and Outreach
   Romania‟s environment suffered considerably during the rapid and unregulated
   industrialization of the Communist era with many of the negative impacts still remaining. A
   lack of environmental education and action has delayed progress in addressing environmental
   issues. Volunteers are assigned to work with environmental protection agencies, national
   park authorities, and environmental NGOs. Many Volunteers also collaborate with local
   schools. Volunteers exchange skills in the areas of communication, environmental
   awareness, and education. They support the staff of their organizations to address existing



Final Program Evaluation Report: Peace Corps/Romania                                               3
   environmental problems and prevent occurrence of future ones, while also working with
   community members to encourage them to take action and become environmental leaders.

       Youth Development
   In 2009 the Youth Development project was developed from the post‟s Institutional
   Development project. Volunteers are placed with non-governmental organizations that
   provide direct services to youth and work with vulnerable youth to build life and work skills.
   In Romania vulnerable youth populations include those with disabilities, HIV/AIDS, those
   who are trafficked, and those from ethnically Rroma, Hungarian, or rural populations.
   Additionally Volunteers in this project work with caregivers and parents to raise awareness
   of youth issues, provide a more supportive environment for youth, and demonstrate that
   youth can serve as leaders. Volunteers also work with general youth populations to build
   leadership skills, self-esteem, life skills, and a spirit of civic participation.

Additionally, the post is planning on developing a Peace Corps Response Volunteer (PCRV)
program to continue supporting stakeholders in sectors where projects are closing. At the onset
of this evaluation there were 99 Volunteers serving in Romania and no PCRVs. Volunteers are
placed across ten regions of the country in rural communities, small towns, and urban areas.




Final Program Evaluation Report: Peace Corps/Romania                                              4
                                    EVALUATION RESULTS
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

        The coordination between the Peace Corps and the host country in determining
        development priorities and Peace Corps program areas;
        Whether post is meeting its project objectives;
        Counterpart selection and quality of counterpart relationships with Volunteers;
        Site development policies and practices.

In reviewing host country coordination, post‟s ability to meet project objectives, counterpart
relationships and the post‟s grant programs, OIG found no significant areas of concern that
would warrant action by the post.

The post is still implementing a major change in programmatic direction. Even so, the post has
active relationships with its partner ministries, meets with them on an as-needed basis, and
produces a report for stakeholders that reports on annual accomplishments. We met with
Romanian ministry partners representing the TEFL, ENV and YD project sectors. All Romanian
partners we interviewed believe that there is a need for Peace Corps in Romania and they support
continued operations. Partners from the ENV and YD sectors expressed that a need still exists in
these areas as well as an interest in continuing to work with Peace Corps, even though these
projects are closing.

In 2009, the Office of Strategic Information, Research and Planning released a Host Country
Impact Study on the post. The purpose of the study was to document the impact Volunteers in
Romania had on agency Goals One1; and Two2. The study had generally positive findings about
Volunteers‟ impact in the ENV, CED and ID which are being closed in an effort to reduce
program sectors and refocus efforts.3

All Volunteers had at least one counterpart and 93 percent (26 of 28 respondents) rated their
counterparts favorably in supporting them in meeting their project objectives4. In addition to
counterparts, the post assigns a community mentor to help Volunteers integrate into their
communities. The Peace Corps Partnership Program (PCPP) is active at the post, however only
three projects have been completed in the past year. The post has been using carry-over funds to

1
  Helping the people of interested countries in meeting their need for trained men and women.
2
  Helping promote a better understanding of Americans on the part of the peoples served.
3
  Institutional Development (ID) was the predecessor of the Youth Development (YD) project.
4
  We interviewed 30 Volunteers during our visit, however some Volunteers did not respond to every interview
question.


Final Program Evaluation Report: Peace Corps/Romania                                                          5
fund Small Project Assistance (SPA) projects; future SPA funding opportunities will not be
available as USAID no longer has a presence in Romania.


The post has a strong Volunteer site development and matching process.

The post follows the agency standard Volunteer site selection criteria as defined in P&T
Guidance: Project Design and Evaluation E.1.4. It has a strong site development and site
matching process, but current business practices could be impacted by the post‟s shift to future
sites in rural and underserved communities. Volunteers interviewed were satisfied with their
sites (97 percent favorable or 29 of 30) and believed that they had enough work to do (93 percent
favorable or 28 of 30). Volunteers thought Volunteer Assignment Descriptions (VADs) were
accurate (97 percent favorable or 29 of 30) and expressed familiarity with their project goals (93
percent favorable or 28 of 30). Ninety-three percent (26 of 28) also believed that they were able
to accomplish their project goals at their sites.

To accomplish the strategic objectives described in the 2011-2013 Integrated Programming and
Budget System (IPBS), the post plans to expand to rural and underserved communities where
Peace Corps has not previously had a presence. Post staff used media campaigns, such as
television and radio interviews, to advertise the Peace Corps program, and subsequently received
many applications from communities interested in hosting Volunteers. Post staff reported that
for the 2010 site development cycle, the post received 100 applications for 44 Volunteer
placements.

In sites where Volunteers have formerly been placed, community stakeholders are familiar with
Peace Corps and what is required to host a Volunteer. As the post expands to more rural and
underserved communities, stakeholders might need additional orientation information about
Peace Corps, and extra support from Peace Corps staff to support Volunteers they are hosting.
Additionally, project resources available to Volunteers, their housing situations, and
communication infrastructure could be different from sites where Volunteers have been
previously placed. While the post has been thus far successful in making these modifications,
current business practices should be reviewed and updated as necessary.

       We recommend:

        1. That the post review and update, as necessary, site development
           and volunteer support management practices to accommodate
           Volunteer placements in rural and underserved communities.


The post does not have Project Advisory Committees.

According to agency Programming and Training Guidance, “A Project Advisory Committee
(PAC) is the „voice of key project stakeholders‟ that helps the Peace Corps ensure that it
develops credible, realistic and responsive project plans and training programs.” The guidance
states:



Final Program Evaluation Report: Peace Corps/Romania                                             6
       PACs comprised of Peace Corps staff, national and local partners, and Volunteers, should be established
       for each new project and should remain active throughout the life of a project. This committee shares
       responsibility for the design, evaluation, and revision of the project. The committee should meet at least
       once during the design of a new project, and ideally at least annually thereafter. The input of PACs is
       critical to maximize the sustainability of Volunteer work, to confirm project support from the government,
       and to define and communicate an optimum role for Volunteers in collaboration with other organizations
       addressing the issue.

While the post previously had PACs, they have not been used for the past two years. However,
an NGO forum discussion was held in June 2010 on leveraging resources in rural communities
and to discuss the potential of using Volunteers as community connectors. According to post
management, the post has considered developing a PAC for the revised TEFL project, which
could also address the needs and incorporate the activities of the closing sectors. At the time of
our visit, post was waiting until the director of programming and training (DPT) position was
filled before initiating the committee.

       We recommend:

        2. That the post develop a Project Advisory Committee.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post‟s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including: staffing; staff
development; office work environment; collection and reporting performance data; and the
post‟s strategic planning and budgeting.

In reviewing staff performance appraisals, the post‟s relationship with headquarters, PCVL roles,
and performance reporting, OIG found no significant areas of concern that would warrant action
by the post. Staff members are content with their level of participation in the IPBS process. The
Peace Corps Volunteer Leader (PCVL) program started in 2008. Both Volunteers and staff have
expressed appreciation for PCVLs‟ contributions to the post, especially their participation in
training sessions. The post has used PEPFAR funds to fund a training session that was well
received by Volunteers.


Staff morale is impacted by the uncertain future of post’s operations.

The agency‟s FY 10 strategic planning process slated Romania for moderate Volunteer growth.
Subsequently, in June 2010, growth for Romania was flat-lined. Some staff commented that
long-standing position vacancies, such as the DPT position, implied that Romania was not a
priority to the agency. Additionally, the eventual closing of three project sectors has necessitated
eliminating programming staff positions. During interviews, some staff expressed concerns
regarding the future of the post, as well as concerns about the decision to close the ENV and YD
project sectors.


Final Program Evaluation Report: Peace Corps/Romania                                                                7
       “Everyone is afraid for the future of PC/Romania… I think generally, a development agency that is only
       providing TEFL education doesn‟t have a future. Development means more than that…Closing three of
       four sectors is a clear indication that the post will be closed soon. “

       “We‟ve had some really low moments related to the future of the post. One was before the accession into
       the EU – there were rumors of closing the country. Then, the closing of the two sectors, but considering
       that prospects still exist the overall atmosphere is positive…At the same time closing 60 percent of your
       programming is a question mark that can be associated with a sign that are things are shrinking and fading
       away.”

       “I don‟t think people are content with the decision that has been taken to close the YD and ENV sectors.
       We are in contact with host counterparts and know there is a need.”

In June 2010, the agency released “Peace Corps: A Comprehensive Agency Assessment.” The
assessment team made recommendations that the agency should annually undertake a portfolio
review utilizing specific criteria to provide decision makers with a comprehensive analysis of
possible options regarding potential new country entries, country closures and operations in
existing countries. The assessment team‟s stated intent is that a comprehensive view of all
possible options for the agency, including Romania, would lead to better resource allocations
across the agency. At the time of this evaluation, the agency‟s first portfolio review was in
progress.

When asked about staff morale, approximately half of the staff interviewed stated that staff
morale was poor citing reasons such as friction between staff, the general economic conditions in
Romania, and dissatisfaction with the decision to close the ENV and YD sectors while they
perceive a need still exists in Romania for those programs. Other staff members commented that
morale was “up and down” or “generally good,” citing that many of the staff members were
weary of change.

Staff interviews also revealed that communication between staff is a weakness at the post. Staff
stated that they were generally satisfied with their work environment. They believe that
communication with managers was good, but cited personal alliances, grudges, and
miscommunication between staff that impact staff cohesion and the work environment.
Concerns were raised during interviews about respect and trust between staff members. OIG
recognizes that the CD has taken steps to build a better team environment. A staff retreat,
focusing on communication and team building, was held in October 2010 after the fieldwork
portion of this evaluation.

We found that post staff members continue to perform professionally and carry out their
responsibilities in spite of the sense of uncertainty and inter-staff communication issues.
Nonetheless, there is potential for these staff morale issues to hinder Volunteer support. A clear
vision for the future of the program and headquarters support for staff managing difficult
transitions will help the post successfully move its program forward.




Final Program Evaluation Report: Peace Corps/Romania                                                                8
         We recommend:

          3. That the Europe, Mediterranean, Asia Region communicate a
             long-term vision for the PC/Romania program.

          4. That the Europe, Mediterranean, Asia Region assist the post with
             strategies to support post managers in addressing cross-cultural
             human resource challenges and managing difficult transitions.


Staffing vacancies have impacted post operations.

Peace Corps experiences frequent position turnover and vacancies both at headquarters and at
posts. In FY 10, the post experienced the following position vacancies.

                                  Table 1: Staff Vacancies in FY 10
                            Position            Months Vacant       Timeframe
                   Director of Programming                          April 2010 -
                                                      6
                   and Training                                  September 20105
                   Information Technology                         October 2009 –
                                                      7
                   Specialist                                       April 2010
                   Volunteer Support                              December 2009
                                                      6
                   Assistant Administrative                         - May 2010
                                                                  January 2010 –
                   TEFL Program Manager               9
                                                                 September 20106

The DPT position is one of three key officer7 positions at post, and provides direct supervision
and guidance to seven programming and training staff. The country director (CD), who arrived
in country mid-February 2010, was the primary backfill for this position, though some DPT
duties were absorbed by other positions or were not fulfilled.

In addition to the DPT vacancy, the TEFL program manager has been on maternity leave since
January 2010. During this time, the TEFL junior program manager has managed the TEFL
project and supervised 67 Volunteers. The post also had additional staff vacancies within the last
year. The safety and security coordinator (SSC) also fulfilled the duties of the information
technology specialist position for an eight month period. The volunteer support assistant
position was vacant for six months and those responsibilities were distributed among various
staff members.



5
  The DPT position was filled in November 2010.
6
  The TEFL Program Manager was on maternity leave from January 2009 through the fieldwork phase of this
evaluation. Peace Corps follows local labor laws of the country in which it operates.
7
  Posts typically have three U.S. Direct Hire positions at post that have additional specific authorities to carry out
post operations, which personal services contractors or foreign service nationals do not have.


Final Program Evaluation Report: Peace Corps/Romania                                                                     9
Concerns were also raised by some post staff that three full-time drivers cannot meet the needs of
the post. When the post needs an additional driver they contract someone, as needed, as the need
for drivers fluctuates throughout the year. Post management is content with this approach and
continues to evaluate if they are adequately staffed with drivers.

While the post has done a good job of maintaining operations despite being understaffed, staff
reported that they were constantly playing “catch-up” as they were covering many
responsibilities. Since her arrival in February 2010, the CD was also responsible for
implementing closure of three project sectors, and refocusing programming to the English
Education project sector in rural and underserved communities. As a result, the post had to
eliminate three program manager positions. Two strategic activities - developing a PAC with
host country stakeholders and determining how to engage and use additional funding streams,
like PEPFAR - were postponed until the DPT position was filled. Staff felt it was a “huge
disservice to the program” to deprive it of a key officer for so long. As a result, during the
absence of the DPT, the program was managed more at “maintenance” levels than moving
forward with needed improvements and according to planned strategies.

The DPT vacancy in Romania was not been an isolated incident. The Office of Global
Operations (OGO) reviewed the DPT and Director of Management and Operations (DMOs)
recruitment and selection process during the summer of 2010, with input from various
stakeholders including the EMA, Africa, and Inter-America & the Pacific regions. OGO
determined that there were systemic problems and other issues that impacted the process.
Agreement was reached to centralize the hiring process in the office of Overseas Recruitment,
Selection and Support (ORSS). ORSS, which manages the CD hiring process, reported a goal to
implement a DPT and DMO hiring process in time to impact the June 2011 Overseas Staff
Training (OST). A more centralized effort could help alleviate staffing vacancies in U.S. Direct
Hire positions. In light of the plans already established to implement centralized hiring
procedures, OIG is not issuing a recommendation for this finding.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including: staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), the handling of crime incidents; and the adequacy of the Volunteer allowances.

In reviewing staff-Volunteer communications, site visits, Volunteer Advisory Committee (VAC),
Peace Corps Volunteer Leaders (PCVL), Volunteer allowances, Volunteer whereabouts policy,
and crime reporting and response, OIG found no significant areas of concern that would warrant
action by the post.

Romania‟s infrastructure is quite developed, including Internet and cell phone reception at most
Volunteer sites. Staff is using technology in an effective and creative way to communicate with
Volunteers, invitees, and the general public. The post has developed a comprehensive external



Final Program Evaluation Report: Peace Corps/Romania                                             10
website, quarterly newsletters, and the staff posts on blogs and Facebook to communicate with
Volunteers. However, given the post‟s strategic shift to more rural site placements, Internet
connectivity and cell phone reception will not be as consistently reliable. The post will not be
able to depend solely on electronic communication with the Volunteers assigned to these
locations.

Volunteers reported they received an adequate number of site visits, and they all gave favorable
ratings to the site visits meeting their support needs. The post encourages all staff to take part in
official site visits so that all staff members travel at least once a year to see Volunteers in the
field. All 30 Volunteers interviewed gave a favorable rating for the adequacy and timeliness of
their settling-in and living allowances.

At the time of the evaluation fieldwork the VAC was in a period of transition since a new cohort
of Volunteers was sworn-in on August 6, 2010. Most Volunteers chose not to rate the
effectiveness of the VAC because they were not familiar with the work they were doing. The 12
Volunteers who provided a rating gave the VAC favorable responses for its effectiveness.
Historically, the VAC has played an active role at post, which has included conducting an annual
Romania-specific Volunteer survey and reporting the results to staff and Volunteers. The PCVL
program started in 2008 and both the Volunteers and staff have expressed appreciation for their
contributions, especially during trainings. Volunteers all gave favorable responses to the support
they receive from the PCVLs.

Volunteers reported that they feel safe in Romania. Peace Corps and U.S. Embassy staff concur
that the country is generally safe, with the greatest danger to Volunteers being opportunistic
crimes like pick-pocketing and burglary. Eighty-seven percent (26 of 30) of Volunteers said that
if a crime occurred in the future they would report it. Ten of the Volunteers interviewed said
they had been the victim of a crime. Those that have reported a crime all gave a favorable rating
for how Peace Corps handled the situation. For the past three years the number crime incidents
in Romania has always been lower than the regional average.

                  Table 2: Number of Crime Incidents Reported in Romania
                 Fiscal        Romania Crime        Average Crime Incidents
                 Year        Incidents Reported        Reported in EMA
                 2010                 8                      11.75
                 2009                11                        15
                 2008                 7                       9.25


Volunteers were very satisfied with staff support and communication.

All 30 of the Volunteers interviewed rated post staff as “effective” or better at helping them
adjust to life as a Volunteer, with an average rating of 4.37 out of 5. All 30 Volunteers gave a
favorable rating on the responsiveness of staff to the issues they raise with an average rating of
4.47 out of 5. For support in specific areas the ratings were as follows:




Final Program Evaluation Report: Peace Corps/Romania                                                 11
                    Table 3: Responses on Perception of Volunteer Support8
                     Support Area     Percent of Volunteers      Average
                                         Rating “Average        Rating for
                                        Support” or Better        Support
                  Leadership                  100%                  4.63
                  Programming                  97%                  4.40
                  Training                    100%                  4.50
                  Safety and Security          96%                  4.43
                  Medical                     100%                  4.77
                  Administrative              100%                  4.91

Volunteers routinely receive programmatic support through the project status reports they submit
three times a year with information on their Volunteer project activities. Half the Volunteers
interviewed were in the early part of their service and had not yet submitted a report. Fifteen of
the Volunteers interviewed had submitted reports and 73 percent (11 of 15) of these Volunteers
gave favorable responses for receiving feedback on their reports. Additionally, 92 percent (12 of
13) of the Volunteers gave favorable ratings for the quality of the feedback.

Volunteers could not correctly identify their consolidation point or security wardens.

Volunteers are provided with a printed copy of the EAP and their warden information during
training and receive update emails from the SSC during their service. The EAP states that “if the
EAP is activated and consolidation is called, all PCVs are expected to be able to get themselves
to their consolidation points.” Additionally, the EAP states that some Volunteers are designated
as security wardens and Volunteers must know who their warden is. However, in our review of
the EAP we found that only 30 percent (9 of 30) of Volunteers interviewed could correctly
identify their consolidation point and some Volunteers were also uncertain of their security
warden. Some Volunteers correctly identified their consolidation city, but not the specific
consolidation place within the city. Furthermore, in four of the eight regions where we
conducted interviews, none of the Volunteers interviewed could correctly identify their
consolidation point.

When Volunteers and security wardens are uncertain of their EAP consolidation point they could
put themselves and others in danger when an emergency or other similar event occurs. At the
time of the evaluation there had been recent changes to the Volunteer security wardens and
alternates, however, only two out of the six wardens and alternates interviewed could correctly
identify their consolidation points. Staff told us that the annual warden training had been


8
  Leadership was derived from the country director score, which for some Volunteers was a combination of their
experience with two country directors. Programming was derived by averaging the program manager and program
assistant scores. Training was derived from the overall rating for their training unit which includes the training
manager, technical trainer, and the cross-cultural trainer. Safety and Security was derived from the safety and
security coordinator score. Medical was derived from the overall rating for the medical unit which includes the
PCMOs and medical assistant. Administrative was derived from the director of management and operations score,
which for some Volunteers was a combination of their experience with two directors of management and operations.


Final Program Evaluation Report: Peace Corps/Romania                                                           12
postponed because of limited staff availability and a new date was being planned at the time of
our evaluation fieldwork.

         We recommend:

          5. That the post confirm that all Volunteers know the location of
             consolidation points and the security wardens responsible for
             their region.

          6. That the post conduct the annual warden training with all
             security wardens, including alternates.


The U.S. Embassy regional security officer did not have an updated EAP or the current
information regarding handling of violent crimes against Volunteers.

According to the Peace Corps Manual (MS) sections 270.7.2 and 350, the post EAP must be
distributed to the U.S. Embassy for inclusion in the embassy‟s EAP. We found that the post‟s
EAP was updated in August 2010 and was emailed to the regional security officer (RSO) in
September. However, during an OIG interview the RSO was only able to locate a January 2010
version of the EAP.

 The interview with the RSO revealed that he had outdated information and still believed that
the Peace Corps OIG was responsible for responding to violent crimes against Volunteers.
Responsibilities under the “Protocol: Violent Crimes against Volunteers” was transferred from
OIG9 to the Office of Safety and Security effective September 1, 2008. Additionally, a State
Department cable from 2009 confirms that the Peace Corps Office of Safety and Security has the
responsibility to respond to crimes against Peace Corps Volunteers “in coordination and
consultation with the Department of State's RSO.” When the transfer of responsibilities was
made to the Office of Safety and Security appropriate measures were not taken to ensure that all
parties were informed. Should an emergency or violent crime occur, coordination problems
between the U.S. Embassy and Peace Corps may develop, putting Volunteers and/or staff at
greater risk.

         We recommend:

          7. That the post work with the U.S. Embassy’s regional security
             officer to strengthen ongoing communications and ensure
             updated Emergency Action Plans and response protocols for
             crimes against Volunteers are in place.



9
 OIG responds to alleged wrongdoing or criminal activity when it involves Peace Corps staff, Volunteers, trainees,
contractors, experts, consultants or funds, including Peace Corps' appropriations, host country contributions, Small
Project Assistance, Participating Agency Service Agreement, Partnership monies, or any other agency funding
sources.


Final Program Evaluation Report: Peace Corps/Romania                                                              13
Volunteers did not have functioning carbon monoxide detectors or understand the appropriate
actions to take if the alarm was activated.

The U.S. Embassy‟s RSO raised concerns about carbon monoxide poisoning as a potential safety
concern for Volunteers. In the course of his two year assignment in Romania, three American
citizens have died as a result of carbon monoxide poisoning.

OIG evaluators tested carbon monoxide detectors in 23 Volunteer homes. Forty-three percent
(10 of 23) of the Volunteers did not have fully functional detectors. Some Volunteers had never
installed their detectors and still had them in the original packaging.

The post‟s housing criteria states that all Volunteers are provided a combined detector for carbon
monoxide and smoke. The post‟s Safety and Security Manual states that Volunteers should
regularly check their detector to ensure it is operating correctly and that, if the alarm sounds, to
open the windows and leave their house/apartment. However, Volunteers gave varying
responses when asked about the carbon monoxide detectors:

       “It would go off, every minute. I haven't told them about it. I dropped it so it doesn't work. I'm not
       concerned cause my cat‟s okay. He hasn't fallen over or anything. He is like my canary in the coal mine.”

       “I gave it away to someone from my pre-service training family. It took up too much room in my suitcase,
       they didn't have one and were delighted to get it. I doubt there is one here. I haven't asked Peace Corps for
       another one.”

       “Gas leaks a little, CO2 goes off sometimes, I take the batteries out.”

The risk of carbon monoxide poisoning is treated during some of the pre-service training safety
and medical sessions, and Volunteers are tested during training about carbon monoxide
poisoning and detectors. Volunteers are also provided with written materials during training and
are emailed additional information during their service by the SSC. At the end of pre-service
training all Volunteers are provided with a detector and batteries and told to install it in their
house. The SSC said he checks the detectors during site visits. Nonetheless, some Volunteers
are exposing themselves to greater danger by not having fully functioning carbon monoxide
detectors and not understanding what to do if the alarm is activated.

       We recommend:

        8. That the post determine that all Volunteers have installed
           working carbon monoxide detectors and know how to respond if
           the alarm is activated.




Final Program Evaluation Report: Peace Corps/Romania                                                             14
Site Locator Forms did not include a map to the Volunteer’s house.

An analysis of 3810 Site Locator Forms (SLF) of currently serving Volunteers revealed that 87
percent (33 of 38) of the forms did not include maps. Thirty-five percent (8 of 2311) of the
Volunteer houses visited in the evaluation could not be located using only the information
included in the Volunteer‟s SLF.

The post‟s Safety and Security Manual states that “all Volunteers are responsible for completing
a SLF after they have moved into their own housing…with a map showing directions to your
house, and instructions for getting there.” Additionally, Peace Corps‟ Characteristics and
Strategies of a High Performing Post and the standard operating procedures for EAP recommend
that Volunteers include a map in their SLF.

There were two versions of the SLF that were currently being used by Volunteers. One version
specifically asks the Volunteer to draw a map while the other version does not. Most Volunteers
complete their site locator forms electronically and submit them via email making it harder to
include a map, which are often hand-drawn. Most of the post‟s vehicles are equipped with a
Global Positioning System (GPS) and use the Volunteer‟s street address to locate their homes.

However the use of a GPS may give staff a false sense of preparedness. Accurate SLF maps are
required for emergency situations so that any available Peace Corps staff member or other
authorized personnel may travel to the Volunteer site; the lack of accurate maps could put
Volunteers at greater risk if they cannot be located using a GPS or when a GPS-equipped vehicle
is not available.

        We recommend:

         9. That the post develop and implement a process to ensure that all
            Volunteers include a reliable map with their site locator forms.


There is confusion among post staff about the duty driver system.

Staff members raised concerns regarding driver support for the duty system. When staff
members were asked to explain the duty driver system OIG received conflicting responses about
how the system currently operates.

The CD, SSC, and PCMOs are on call twenty-four hours a day, seven days a week to respond to
emergencies. Drivers are not always needed as sometimes staff will drive themselves in Peace
Corps vehicles to respond to a call. The post has three full-time drivers and when they cannot
meet the needs of the post an additional driver is contracted part-time as needed. If a driver is

10
   Thirty Volunteers were interviewed, but there were two married couples so only one SLFs was analyzed per
couple. Thus, the SLF analysis included twenty-eight SLFs from Volunteers that were interviewed and ten SLFs
from a file review of other Volunteers who were not interviewed.
11
   Only twenty-three of the thirty Volunteer interviews were conducted at the house of the Volunteer.


Final Program Evaluation Report: Peace Corps/Romania                                                           15
needed to respond during normal business hours the general services officer (GSO) assigns an
available driver to respond. Outside of normal business hours the drivers have a rotating system
where they are on call to respond. The GSO is the backup in case the drivers are not available to
respond.

According to MS 270.6.1 “procedures should be established for reporting safety and security
incidents [and] responding to such incidents. Such procedures are essential to post's ability to
provide support to affected V/Ts.”

Some of the confusion about the duty system might be a result of changes in post leadership.
There have been recent changes in the post‟s staff with the assignment of a new CD, DMO, and
SSC during the past year, and the duty system has not been revised since they came on board.
Staff commented that in an emergency it might be unclear who should respond and some time
might be lost sorting this out. This confusion among staff with response procedures could put
Volunteers and/or staff at greater risk.

       We recommend:

        10. That the post revise the duty system and adequately train staff to
            appropriately respond when the system is activated.


Volunteer files were not well organized.

Volunteer program, site, and medical information are housed in many locations. Programming
information is stored in one place, site locator forms and site history forms are stored elsewhere
and the medical unit maintains their own files. Some Volunteer information is stored
electronically while some information is stored in paper files. As part of the evaluation, we
reviewed 10 Volunteer files for completeness. Only four included completed housing checklists,
and none included site visit reports.

The post is in a process of transitioning from a primarily paper-based file system to a more
computer-based file system. However, no clear policy or guidelines have been developed by the
post to organize their Volunteer file systems. Maintaining electronic Volunteer files might be
easier and more beneficial for day to day operations of the post. However, if the electronic
Volunteer files become inaccessible in case of an emergency some important documentation
should also be updated and maintained in a paper-based file system.

MS 270.6.6 requires that each post maintain a system for recording the history of a Volunteer
site, including “… Volunteer concerns about a location, safety and security incidents that occur
in the community, and other conditions that could otherwise affect a future decision to place a
Volunteer in that location.” The Office of Safety and Security has developed useful guidelines
for developing site history files. Without a specific file organizational system for the entire post
to follow there is the potential for important information or documentation to be lost or
misplaced. Additionally, maintaining duplicate file systems can be an unnecessary burden on the
staff and it might be unclear where to find the most updated documents.



Final Program Evaluation Report: Peace Corps/Romania                                               16
       We recommend:

        11. That the post develop and implement guidelines for organizing
            electronic and paper Volunteer files.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:
training adequacy; planning and development of the training life cycle; and staffing and budget
related to training.

In reviewing the post‟s process for planning and developing training, OIG found no significant
areas of concern that would warrant action by the post. The post uses an inclusive process to
plan its Volunteer training programs. Post staff from multiple units help plan and deliver
Volunteer training. Post has defined competencies and learning objectives that are clearly
outlined in its Trainee Competency Handbook. Counterparts are included in most training
offerings.

Post staff also reported that it has adequate staffing resources to deliver Volunteer training.
However, the vacancy of the DPT position required that the staff wear multiple hats and strive to
maintain a consistent level, rather than grow and improve, the training program.

Volunteers participate in several training events throughout their service, including PST, In-
Service Training (IST), and Mid-Service Training (MST). We asked Volunteers to rate the
effectiveness of these trainings and found that training is generally effective as noted in the table
below.




Final Program Evaluation Report: Peace Corps/Romania                                               17
                       Table 4: Volunteer Perceptions of Training Effectiveness
                Area            Ineffective (1) /    Moderate (3) /       Average
                               Below average (2) Above average (4)         Rating
                                                   / Very effective (5)
        PST:
          Language                       7%                93%                4.3
          Culture                        10%               90%                4.0
          Safety/Security                0%               100%                4.3
          Medical/Health                 0%               100%                4.7
          Technical                      10%               90%                3.3
        IST                              25%               75%                3.3
        MST                              18%               82%                3.5
       Source: OIG Volunteer Interviews, 2010

The lowest effectiveness scores were registered for the IST and MST programs. Although
Volunteer comments on IST and MST were mixed, Volunteers requested additional training on
grant-writing, design for small projects and additional exposure to grant sources. Volunteers
also expressed that they would like more comprehensive coverage of discrimination, particularly
attitudes towards the different sexes and racism.

The post held a stand-alone Project Design and Management (PDM) workshop in September
2010. All Volunteers interviewed who participated in the workshop rated it favorably in terms of
effectiveness. In addition, Volunteers rated workshops such as Behavior Modification, EU
Funding and Project Design and Management very positively – all scoring favorable
effectiveness ratings.




Final Program Evaluation Report: Peace Corps/Romania                                         18
                OBJECTIVE, SCOPE AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

The OIG Evaluation Unit announced its intent to conduct an evaluation of the post on August 3,
2010. For country program evaluations, we use the following researchable questions to guide
our work:

   To what extent has post developed and implemented programs to increase host country
   communities‟ capacity?
   Does training prepare Volunteers for Peace Corps service?
   Has the post provided adequate support and oversight to Volunteers?
   Are post resources and agency support effectively aligned with the post‟s mission and agency
   priorities?

The evaluation team conducted the preliminary research portion of the evaluation from August 4
– September 17, 2010. This research included review of agency documents provided by
headquarters and post staff; interviews with management and staff representing the EMA region,
the office of Safety and Security, Peace Corps Response; and inquiries to Office of Programming
and Training Support, the Office of Private Sector Initiatives, the Office of Volunteer
Recruitment and Selection, the Office of AIDS Relief, and Volunteer Support.

In-country fieldwork occurred from September 20 – October 8, 2010, and included interviews
with post senior staff in charge of programming, training, and support; the U.S. Ambassador; the
embassy regional security officer; and host country government ministry officials. In addition,
we interviewed a stratified judgmental sample of 30 Volunteers (32 percent of Volunteers
serving at the time of our visit) based on their length of service, site location, project focus,
gender, age, marital status and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) (formerly the
President‟s Council on Integrity and Efficiency). The evidence, findings, and recommendations
provided in this report have been reviewed by agency stakeholders affected by this review.



Final Program Evaluation Report: Peace Corps/Romania                                           19
                                    INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 30 Volunteers, 16 staff members
in-country, and 13 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Romania, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of these
ratings provided a quantitative supplement to Volunteers‟ comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, 25 out of 30 Volunteer interviews occurred at the Volunteers‟ homes, and
we inspected 2312 of these homes using post-defined site selection criteria. The period of review
for a country program evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Romania; the Volunteer sample was selected to reflect these demographics.

                                    Table 5: Volunteer Demographic Data
                                                                                Percentage of
                                          Project
                                                                                 Volunteers
                    Teaching English as a Foreign Language                          78%
                    Environment                                                      9%
                    Youth Development                                               12%
                    Community and Economic Development                               1%
                                                                                Percentage of
                                          Gender
                                                                                 Volunteers
                    Female                                                          66%
                    Male                                                            34%
                                                                                Percentage of
                                            Age
                                                                                 Volunteers
                    25 or younger                                                   52%
                    26-29                                                           25%
                    30-49                                                           10%
                    50 or over                                                      14%
                    Source: Volunteer roster provided by post on August 13, 2010.
                    Note: Percentages may not total 100 percent due to rounding.




12
     For Volunteers who live with their spouses their house was only inspected once.


Final Program Evaluation Report: Peace Corps/Romania                                            20
At the time of the field visit, the post had 26 staff positions. The post also employs temporary
staff/contractors to assist with PST. During the evaluation fieldwork, the DPT position was vacant
and the Program Manager for TEFL was on maternity leave. We interviewed 16 staff members.

                    Table 6: Interviews Conducted with Post Staff Members
                            Position                           Status     Interviewed
       Country Director                                   USDH                 X
       Director of Management and Operations              USDH                 X
       Director of Programming and Training (Vacant)      USDH
       Program Manager TEFL (On maternity leave)          PSC
       Program Manager Environment                        PSC                  X
       Program Manager Youth Development                  PSC                  X
       Junior Program Manager TEFL                        PSC                  X
       Training Manager                                   PSC                  X
       Safety and Security Coordinator                    PSC                  X
       Technical Training Coordinator                     PSC                  X
       Language Specialist                                PSC                  X
       PCMO (2)                                           PSC                  X
       Medical Unit Assistant                             PSC
       Volunteer Support Assistant                        PSC                  X
       Receptionist                                       PSC                  X
       Administrative Assistant (2)                       PSC
       Financial Assistant                                FSN
       Cashier                                            FSN
       Information Technology Specialist                  PSC
       General Services Officer                           PSC                  X
       Driver/Logistics Assistant (3)                     PSC                  X
       Office Cleaner                                     PSC
       Data as of September 2010.




Final Program Evaluation Report: Peace Corps/Romania                                                 21
Thirteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.


                  Table 7: Interviews Conducted with PC/Headquarters Staff,
                         Embassy Officials and Key Ministry Officials
                       Position                                Organization
      Regional Director                           PC/Headquarters/EMA Region
      Chief of Operations                         PC/Headquarters/EMA Region
      Chief Administrative Officer                PC/Headquarters/EMA Region
      Country Desk Officer                        PC/Headquarters/EMA Region
      Expert (Former Romania Country Director) PC/Headquarters/D
      Safety and Security Officer (PCSSO)         PC/Headquarters/Office of Safety and
                                                  Security
      Program and Operations Specialist           PC/Headquarters/PCR
      U.S. Ambassador                             U.S. Embassy in Romania
      Regional Security Officer                   U.S. Embassy in Romania
      Safety and Security Desk Officer            PC/Headquarters/EMA Region
      Director, National Authority for Sports and Ministry of Education Department of
      Youth                                       International Relations and
                                                  Management of Non-Refundable
                                                  Funds
      General Director                            Ministry of Education, Research,
                                                  Youth and Sports
      Inspector General for English, Japanese     Ministry of Education, Research,
      and Chinese, General Department of          Youth and Sports
      Education and Life Long Learning
      Director of Communications                  National Environmental Protection
                                                  Agency
       Data as of September 2010.




Final Program Evaluation Report: Peace Corps/Romania                                             22
                         LIST OF RECOMMENDATIONS
WE RECOMMEND:

       1. That the post review and update, as necessary, site development and
          volunteer support management practices to accommodate Volunteer
          placements in rural and underserved communities.

       2. That the post develop a Project Advisory Committee.


       3. That the Europe, Mediterranean, Asia Region communicate a long-
          term vision for the PC/Romania program.

       4. That the Europe, Mediterranean, Asia Region assist the post with
          strategies to support post managers in addressing cross-cultural human
          resource challenges and managing difficult transitions.

       5. That the post confirm that all Volunteers know the location of
          consolidation points and the security wardens responsible for their
          region.

       6. That the post conduct the annual warden training with all security
          wardens, including alternates.

       7. That the post work with the U.S. Embassy‟s regional security officer
          to strengthen ongoing communications and ensure updated Emergency
          Action Plans and response protocols for crimes against Volunteers are
          in place.

       8. That the post determine that all Volunteers have installed working
          carbon monoxide detectors and know how to respond if the alarm is
          activated.

       9. That the post develop and implement a process to ensure that all
          Volunteers include a reliable map with their site locator forms.

       10. That the post revise the duty system and adequately train staff to
           appropriately respond when the system is activated.

       11. That the post develop and implement guidelines for organizing
           electronic and paper Volunteer file




Final Program Evaluation Report: Peace Corps/Romania                               23
APPENDIX A


        AGENCY’S RESPONSE TO PRELIMINARY REPORT
APPENDIX B



                                    OIG COMMENTS
Management concurred with all 11 recommendations. Based on the documentation provided, we
closed 9 recommendations: numbers 1, 2, 3, 6, 7, 8, 9, 10, and 11. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the region or post has taken these actions or that we have reviewed their effect. Certifying
compliance and verifying effectiveness are management‟s responsibilities. However, when we
feel it is warranted, we may conduct a follow-up review to confirm that action has been taken
and to evaluate the impact.
Two recommendations, numbers 4 and 5, remain open pending confirmation from the chief
compliance officer that the documentation reflected in OIG Analysis is received.

   4: That the Europe, Mediterranean, Asia Region assist the post with strategies to
   support post managers in addressing cross-cultural human resource challenges and
   managing difficult transitions.

   Concur: Region is assisting Post with strategies, approaches, and resources to help Post
   leadership lead change. For example, Region‟s Chief of Program and Training has
   experience in staff and organizational development and change management and has shared
   with Post several resources on leading change and managing transitions. She will provide
   further guidance to Post from headquarters to help assure an adequate change management
   plan is in place and plans a visit to Post (likely in Fall 2011) to assist managers in addressing
   staff morale issues and to lead sessions for HCN staff. These sessions will help Post
   managers:
           Help staff determine where they are in the transition process
           Guide people through the transition, and utilize that in-between state creatively
           Develop strategies for making clear endings
           Create a plan for launching a new beginning for "Life After Peace Corps"

   These sessions will also help Post to prepare for their planned short retreat with HCN staff on
   Career Development and Life after the Peace Corps (as stated in the FY2012-FY2014 IPBS).

   Status and timeline for completion: October 2011

   OIG Analysis: We acknowledge the agency‟s efforts to address this recommendation and
   await documentation of the approved change management plan and trip report that describes
   the content of sessions delivered during the Region‟s Chief of Program and Training visit to
   post.

   5: That the post confirms that all Volunteers know the location of consolidation points
   and the security wardens responsible for their region.




Final Program Evaluation Report: Peace Corps/Romania                                              32
APPENDIX B


   Concur: PCVs are initially instructed on the regional warden system that Post operates at
   PST. They are given an EAP manual that details the name and contact information of their
   warden and consolidation point. Wardens attend training and are further instructed to
   periodically review and remind their fellow PCVs of both their roles in an emergency event,
   the consolidation points and how to be prepared for an emergency.
          A full consolidation exercise for PC Romania will take place as soon as possible
          (planned for Fall 2011).
          PST will include an additional Safety and Security session in order to make sure that
          trainees fully understand PC Romania's EAP. Scenarios and tabletop exercises will
          ensure that trainees will be aware of their future consolidation points.
           On March 13, 2011, PCSSO Jason Kane and the SSC conducted a warden training in
          Cluj-Napoca for all wardens and alternates. The CD, AO, and PTO participated as
          well.

   Documents to be submitted:
        Consolidation Session Plan Fall of 2011, after consolidation exercise is completed.

   Status and timeline for completion: September 30, 2011

   OIG Analysis: We acknowledge the agency‟s efforts to address this recommendation. Please
   submit a copy of the consolidation session plan and of the results of the consolidation
   exercise.




Final Program Evaluation Report: Peace Corps/Romania                                          33
APPENDIX C


   PROGRAM EVALUATION COMPLETION AND OIG CONTACT
   PROGRAM EVALUATION             This program evaluation was conducted under the
   COMPLETION                     direction of Jim O‟Keefe, Assistant Inspector General for
                                  Evaluations, and by Senior Evaluator Susan Gasper and
                                  Program Analyst Danel Trisi. Additional contributions
                                  were made by Reuben Marshall.



   OIG CONTACT                    Following issuance of the final report, a stakeholder
                                  satisfaction survey will be distributed. If you wish to
                                  comment on the quality or usefulness of this report to help
                                  us improve our products, please e-mail Jim O‟Keefe,
                                  Assistant Inspector General for Evaluations and
                                  Inspections, at jokeefe@peacecorps.gov, or call (202)
                                  692-2904.




Final Program Evaluation Report: Peace Corps/Romania                                            34
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                   Main Office: 202.692.2900
                   24-hour Hotline: 202.692.2915
                   24-hour Toll-Free Hotline in the U.S.: 800.233.5874

                   Peace Corps Office of Inspector General
                   P.O. Box 57129
                   Washington, DC 20037-7129

                   OIG@peacecorps.gov

                   Online Contact Form: www.peacecorps.gov/ContactOIG

                   www.peacecorps.gov/OIG




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
